Interest Rates and Interest Charges
Loyalty Rewards Visa Platinum Rewards Visa Share Secured Visa
Annual Percentage Rate
(APR) for Purchases

9.90% to
8.90% to
13.99% to
18.00% based on 18.00% based on 17.99% based on
your creditworthiness

APR for Balance Transfers

Penalty APR and When it
Applies

How to Avoid Paying
Interest on Purchases

Minimum Interest
Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

your creditworthiness

9.90% to
13.99% to
8.90% to
18.00% based on 18.00% based on 17.99% based on
your creditworthiness

APR for Cash Advances

your creditworthiness

your creditworthiness

your creditworthiness

13.99% to
8.90% to
9.90% to
18.00% based on 18.00% based on 17.99% based on
your creditworthiness
None

your creditworthiness

your creditworthiness

Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your
entire balance by the due date each month. We will begin charging
interest on cash advances and balance transfers on the transaction
date.
None

To learn more about factors to consider when applying for or using a
credit card, visit the website of Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees

-Balance Transfer

None

-Cash Advance
-Foreign Transaction

None
Up to 1% of the transaction amount.

Penalty Fees
-Late Payment
-Over-the-Credit Limit

-Returned Payment

5% (minimum $20.00, maximum $30.00) of the schedule payment
if not paid within 5 days of the payment due date
$20.00 each month your balance exceeds your credit limit by
$200.00 or 10% whichever is less.
$25.00

How We Will Calculate Your Balance: We use a method called "average daily balance(including new
purchases."

VISA Disclosure
In these disclosures, “We,” “Our,” “Us,” “Credit Union” or “NFCU” means Noble Federal Credit Union.
NOTICE:
You agree that we may obtain any information given, including employment and use consumer credit reports and exchange credit
information in connection with this offer and any update, renewal or extension of credit we may extend to you or for any other
legitimate business purpose. If you request, we will inform you whether any credit report was requested and, if so, the name and
address of the consumer reporting agency which furnished the report. You agree that we may share personal and account information
about you within Noble Federal Credit Union for the purpose of marketing to you for our products and services, including banking,
insurance and investment products. You agree that we reserve the right based upon our evaluation of information furnished by you or
others, to open a Noble Federal Credit Union Visa Classic account, or a Noble Federal Credit Union Visa Platinum account, with the
pricing terms stated below. You must be at least 18 years old to qualify. You must have a valid permanent home address within the 50
United States or District of Columbia. Responses with addresses outside this market area, including addresses in US territories,
commonwealths and possessions, may not be approved. You agree that the use of any card or account issued in connection with this
offer is subject to the terms specified in, and such terms are subject to change as provided in, the Cardmember Agreement mailed
with your card. The Cardmember Agreement contains a binding arbitration provision which may affect your rights to go to court,
including your right to a jury trial or your right to participate in a class action or similar proceeding.
State laws require the following notice: California Residents: Married applicants may apply for separate credit.
Your signature on this application certifies that the above statements are true and complete. You agree to be bound by the terms and
conditions of the agreement and the Federal Truth and Lending disclosure statements. If there is more than one signature below, each
of you understands and agrees that each person signing will have full and equal access to any credit line extended and will be
individually and jointly liable for payment of all amounts owing on the account.
The Credit Union may enforce a lien, including costs of collection and reasonable attorney fees, against my Credit Union account(s) if
my VISA card is in default. Any other secured loans you have with the Noble Federal Credit Union, now or in the future also secure this
loan, except any loan secured by your principal residence.
BALANCE TRANSFER DISCLOSURES:
You agree to allow approximately 30 days for Us to process your response and transfer the balance(s) to your Noble Federal Credit
Union account. Please continue to make at least minimum payments on your other credit cards until we notify you that the balances
have been transferred. Noble Federal Credit Union is not responsible for fees and finance charges incurred by you prior to your balance
being transferred to Noble Federal Credit Union. Payment of the amount(s) authorized by you may or may not satisfy any outstanding
balances(s) on the designated account(s). You will continue to be responsible for any balances on your other credit cards. In the event
that your request(s) exceed the amount of your credit line, the Credit Union will fulfill your requests in numeric order as listed in your
response, may decline to process one or more requests and/or may complete one request impartial amount. The payment and
transfer of balances is contingent upon approval by the Credit Union and receipt of complete, legible balance transfer requests. Your
balance transfer request may not be used to make payments toward amounts you owe Noble Federal Credit Union. Transfer requests
to cash or to yourself cannot be processed.

04/13/2021

NOBLE FEDERAL CREDIT UNION
VISA AGREEMENT AND DISCLOSURE
This is the Agreement for your Noble Federal Credit Union VISA Card - Platinum VISA, Platinum Rewards VISA, Loyalty
Rewards VISA, and Share Secured VISA credit card account ("Account") with us. This agreement replaces all previous VISA
disclosures.
In this Agreement, "we", "us", "our", and "NFCU" refer to Noble Federal Credit Union, the credit grantor and card issuer for your
Account. "You", "your", and "yours" refer to:
• each cardholder
• any person bound by this Agreement; and any other person who uses your Account. You accept the terms and conditions
of this Agreement when you apply for or use your Account.
YOUR ACCOUNT
The following transactions are charged to your Account:
• Purchases
• Cash Advances, including: cash from participating automated teller machines (ATMs) with your Personal Identification
Number (PIN);
• money orders;
• foreign currency;
• lottery tickets;
• purchases of casino chips or vouchers redeemable for cash;
• wagers at racetracks; and
• any similar items that VISA U.S.A. Inc (VISA) may designate.
YOUR CREDIT LINE:
The Credit Line for your Account is shown on your billing statement. We may change your Credit Line at any time without prior
notice except as required by law. You may request a change in your Credit Line. Increases are subject to our review and
approval.
SPECIAL AUTHORIZATIONS:
Some of your purchases, service transactions and cash advances will require our prior authorization. We may limit the number of
authorizations we give your Account on any one day or for other reasons. We are not liable if a merchant, financial institution or
ATM does not honor a card for your Account, or if authorization for a transaction is not given. If you do not receive authorization
at the time you wish to conduct your transaction at a merchant location or financial institution, you should telephone us for
assistance at (559) 252-5000 or at (800) 613-2328 between 7:30 am and 6:00 pm Monday through Friday, 9:00 am and 3:00pm
Saturday.
FINANCE CHARGE:
PLATINUM VISA:
The ANNUAL PERCENTAGE RATE for your Platinum VISA account may range from 8.90% to 18.00% (with a corresponding
daily periodic rate of .0244% to .0493%). We will give you the lowest rate possible based on your qualifications. This rate is used
to calculate the FINANCE CHARGE on both cash advances and retail purchases.
PLATINUM REWARDS VISA:
The ANNUAL PERCENTAGE RATE for your Platinum Rewards VISA account may range from 9.90% to 18.00% (with a
corresponding daily periodic rate of .0271 to .0493%). We will give you the lowest rate possible based on your qualifications. This
rate is used to calculate the FINANCE CHARGE on both cash advances and retail purchases.
LOYALTY REWARDS VISA:
The ANNUAL PERCENTAGE RATE for your Loyalty Rewards VISA account may range from 8.90% to 18.00% (with a
corresponding daily periodic rate of .0244% to .0493%). We will give you the lowest rate possible based on your qualifications.
This rate is used to calculate the FINANCE CHARGE on both cash advances and retail purchases.
SHARE SECURED VISA:
The ANNUAL PERCENTAGE RATE for your Platinum VISA account may range from 13.99% to 17.99% (with a corresponding
daily periodic rate of .0383% to .0493%). We will give you the lowest rate possible based on your qualifications. This rate is used
to calculate the FINANCE CHARGE on both cash advances and retail purchases.
OTHER FEES & CHARGES:
Late Charges - We may charge you 5% ($20.00 minimum, $30.00 maximum) of the payment amount if we do not receive the
Minimum Payment Due shown on your monthly billing statement within 5 days of the Payment Due Date.
Over the Credit Limit Fee - We may charge you $20.00 if your Account balance exceeds your credit limit by $200 or 10%,
whichever is less. This fee may be charged each billing cycle that your balance exceeds your credit limit by $200 or 10%,
whichever is less.
Annual Fee - None
Page 3 of 7

Cash Advance Fee - None
Returned NFCU VISA Convenience Check Fee - We will add a $20 fee if we decline to honor an NFCU credit card
convenience check.
Returned Payment Fee - We may charge you $25 each time your check or other payment instrument is returned to us for
any reason. If payment is not received by the due date we may also charge you a late charge.
Copy/Research Charges - You may ask us for a copy of a billing statement, sales draft, or other record of your Account by
contacting us at the Member Service telephone number on your billing statement. The fee(s) associated with any of these
requests are noted on the Fee Schedule. If you request research on your Account or authorize others to request it, we may
charge you a fee as noted on the Fee Schedule. If your request relates to a billing error as described below and you follow
the procedures described on the back of your billing statement, we will not impose, or we will reverse, these charges. If we
produce documents in response to legal process, we may charge these fees as noted on the Fee Schedule to your account.
Collection Costs and Attorney Fees - To the extent not prohibited by law, if you are in default, you will pay our collections
costs, attorney fees, court costs and all other expenses of enforcing our rights under this Agreement.
HOW WE CALCULATE YOUR BALANCE:
On the Billing Date on your billing statement, we calculate your daily balance by starting with the outstanding balance for
each day of your billing cycle. Next we add new charges and other debits and subtract all payments, credit adjustments, and
any Finance Charges you owe. The remaining amount is the daily balance. We add all daily balances and divide by the
number of days in the billing cycle to arrive at the Average Daily Balance for your Account.
HOW WE CALCULATE YOUR FINANCE CHARGE:
Monthly Periodic Charge: The Monthly Periodic Charge for your Account is calculated by multiplying the Average Daily
Balance by the applicable Monthly Periodic Rate (described above).
Grace Period: A 25-day minimum grace period free of Monthly Periodic Charge applies to Purchases itemized on your
billing statement if:
• the Previous Balance on your billing statement is zero or a credit balance;
• we receive payment of your New Balance shown on your previous billing statement by the Payment Due Date shown
on that statement.
If you do not pay your full balance by the payment due date, interest will be charged from the date the purchase is posted to
the account. The FINANCE CHARGE on your Account is the sum of the Cash Advance fees and the Monthly Periodic
Charge for the Account. There is no grace period for Cash Advances.
YOUR PAYMENTS:
You promise to pay us for all transactions on your Account, whether the transactions are yours or those of any persons
authorized to use your Account, plus all other fees, charges and expenses as provided in this Agreement. You will be
individually and jointly liable for all credit extended on the account. You will pay at least the Minimum Payment Due by the
Payment Due Date shown on your billing statement. You will make payments for your Account and for any other NFCU
Account separately. If you do not make payments separately, or if you give conflicting payment instructions, we may, at our
option, apply payments to your Account as we deem appropriate.
Minimum Payment Due: The Minimum Payment Due is the sum of the Current Amount Due plus any amount Past Due
plus the amount of your New Balance that exceeds your Credit Limit. To determine the Current Amount Due, we subtract the
Amount Past Due from your New Balance as shown on your billing statement. If the remaining amount is:
• Less than $20, the current amount due is equal to that amount.
• $20 or more, the current amount due is the greater of $20 or 2% of that amount.
How We Apply Your Payments: Payments to your Account are applied in this order:
1. Finance Charges on both purchases and cash advances
2. Cash Advance Fees
3. Other Fees
4. Cash Advance Minimum Payment Due
5. Retail Minimum Payment Due
6. Cash Advance Previous Balance
7. Retail Previous Balance
8. New Cash Advance Activity
9. New Retail Activity
10. Unbilled Cash Advance Fees
11. Other Unbilled Fees
OTHER IMPORTANT INFORMATION:
Transfer of Balance Request: If you desire to convert your outstanding balance from another card onto your NFCU VISA
Card Account, you may do so by checking the appropriate box on the application. Your signature will be our authorization to
prepare and mail a check to pay off your other card and to place the balance from that card onto your NFCU VISA Card
Account. This balance will incur finance charges, but no cash advance fee will be charged.

Page 4 of 7

Unsecured Credit: This Agreement does not grant us a security interest in the purchases you charge to your Account or any
other property that you own.
Prohibited Transactions: You are strictly prohibited from using your Visa card as payment for any illegal purchases, and you
agree to pay for all such purchases that you transact in violation of this Agreement.
Signature Requirement: You will sign the back of your credit card as soon as you receive it.
Account Materials: We may send Account Materials (cards, checks, billing statements and notices) only to the first person
listed on your Account, and that person will be responsible for delivering those materials to the other persons authorized to use
your Account. Notice to the first cardholder will be considered notice to all cardholders.
Change of Personal Information: You will notify us in writing immediately if you change your name, address or home or
business telephone number.
Solicitations: We may provide information about our cardholders to outside merchants we carefully select to offer products and
services to our cardholders. This information may include, among other things, names, addresses, phone numbers and account
numbers for billing purposes. If you prefer that we not share information about your Account, please write us at P.O. Box 8027,
Fresno, CA 93747-8027. Please include your name and Account number as they appear on your billing statement.
Credit Information: We may periodically review your creditworthiness by obtaining information from credit reporting agencies
and others concerning your accounts. We may also release information about your VISA Account to others. You will provide
updated financial information upon our request.
Lost or Stolen Cards: If your credit card is lost or stolen, or if you think that it is being used without your permission, you will
notify us immediately by calling the “Lost or Stolen Card” number on your billing statement, or by calling (559) 252-5000 or (800)
613-2328 during business hours, or (800) 472-3272 after hours. You may be liable for up to $50 for any unauthorized PIN based
transactions that occur before you notify us that your card is lost or stolen.
Default: Your Account is in default if you fail to comply with any of the terms or conditions of this Agreement or any other loan
agreement with us or anyone else, or in the event of your death, bankruptcy or insolvency. If you are in default, we may close
your Account without notice and demand immediate payment of your outstanding balance. The Credit Union may enforce a lien,
including costs of collection and reasonable attorney fees, against your Credit Union account(s) if your Visa card is in default.
Any other secured loans you have with the Noble Federal Credit Union, now or in the future also secure this loan, except any
loan secured by your principal residence. In the event of default, any litigation venue shall be in Fresno County, California.
Closing Your Account: We may close your Account, or suspend your credit privileges, or elect to not re-issue your cards at any
time without prior notice except as required by law. You will stop using your Account as soon as you learn of its closure. You will
still be obligated to pay all outstanding balances that are or become due on your Account. If we ask, you will return or destroy all
cards issued on your Account. Upon receiving a request from any party to your Account to close the Account, or remove another
party from the Account, we, at our option and without notice to any other parties, may comply with that request or refuse to
comply based on our investigation of the matter.
Change of Terms: We may change any term, rate, condition, service or feature of your Account at any time. We will provide you
with notice of the change to the extent required by law.
Telephone Monitoring: Our supervisory personnel may listen to or record telephone calls between you and our employees for
the purpose of monitoring and improving the quality of service you receive.
Enforceability: Our failure to exercise any of our rights under this Agreement will not waive any of our rights in the future. If any
term of this Agreement is found to be unenforceable, all other provisions will remain in full force.
FOREIGN CURRENCY TRANSACTIONS:
The exchange rate between the transaction currency and the billable currency is a rate selected by Visa from the range of rates
available in wholesale currency markets for the applicable central processing date, which rate may vary from the rate Visa itself
receives, or the government-mandated rate in effect for the applicable central processing date, in each instance, plus or minus
any adjustment determined by the Issuer.
Payments in Foreign Currency: For all amounts you owe on your Account, you will pay in U.S. dollars. All checks must be
drawn from funds on deposit in the U.S. We may, at our option, accept payments made in foreign currency or checks drawn on
non-U.S banks. If we do, we may impose service and collection charges. Our Determination of service and collection charges
will be final.
Foreign Transactions:
Foreign Transactions in Foreign Currency Purchases and cash advances made in foreign currencies will be billed to you in U.S.
dollars. Transactions processed outside of the United States, or in a foreign currency may be charged a foreign transaction fee,
regardless of whether there is a currency conversion associated with the transaction. Foreign transactions include transactions
initiated in the U.S. authorizing access to a debit card, credit card or deposit account number using a telephone, computer or
mobile device application but with a merchant who processes the transaction in a foreign country. The conversion rate in dollars
will be a rate selected by VISA from a range of rates available in wholesale currency markets for the applicable Central
Processing Date, which rate may vary from the rate VISA itself receives, or the government-mandated rate in effect for the
applicable Central Processing Date in each instance, plus a one percentage point (1%) fee charged by the Issuer.

Page 5 of 7

Foreign Transactions in U.S. currency purchases and cash advances made in foreign countries will be billed to you in U.S.
dollars. Transactions processed outside of the United States, in U.S. dollars, may be charged a foreign transaction fee of point
eight percent (.8%), regardless of whether there is a currency conversion associated with the transaction.
Blocked Countries: For your protection, usage of your VISA credit card in certain countries may be blocked. Prior to traveling
out of the country, please call the credit union for a list of blocked countries.
Governing Law: THIS AGREEMENT IS GOVERNED BY CALIFORNIA LAW AND APPLICABLE FEDERAL LAW.
FAIR CREDIT BILLING ACT NOTICE IN CASE OF ERRORS OR INQUIRIES ABOUT YOUR BILL:
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at: Noble Federal Credit Union, P.O. Box 8027, Fresno, CA 937479881
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• if we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• if we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.

Page 6 of 7

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase. If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at: Noble Federal Credit Union, P.O. Box 8027, Fresno, CA 93747.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will
tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

04/13/2021

Page 7 of 7

